              Review of Internal Control Over Budget Execution
                    Report No. 05-09, September 6, 2005

INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review
of internal control over budget execution.

Background

The RRB administers the retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families under the
Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act
(RUIA). These programs provide income protection during old age and in the
event of disability, death, temporary unemployment or sickness. The RRB paid
nearly $9.1 billion in benefits during fiscal year 2004.

The Federal government incurs obligations when orders are placed, contracts
awarded or services are received. Obligations are liquidated when funds are
disbursed; such payments are termed outlays or expenditures. Before
obligations can be incurred by a Federal entity, an appropriation must be made
available by Congress. Only Congress can appropriate funds or budget authority
to permit expenditure of Federal money. By law, the Office of Management and
Budget (OMB) has the responsibility to apportion the various funds appropriated
by Congress to regulate the rate of fund use by agencies. Thus, OMB must
approve all apportionment requests before a Federal agency can obligate the
government or expend Federal funds.

Throughout the year, the RRB incurs obligations and makes outlays to carry out
funded programs, projects, and activities. The agency is responsible for ensuring
that appropriated funds are used within the specified time periods and only for
the purposes and amounts authorized by Congress and OMB.

The Budget Section, within the agency’s Bureau of Fiscal Operations (BFO), is
responsible for preparing budget requests, recording budgetary transactions and
monitoring budget execution. The Federal Financial System (FFS), the
mainframe application that supports general ledger accounting, includes an
integrated budget subsystem that supports recording and reporting of budget
authority.

The RRB established the Management Control Review Committee (MCRC) to
provide the Board Members and all RRB stakeholders with reasonable
assurance that the RRB is taking systematic and proactive measures to develop
and implement results-oriented, cost-effective management controls. The MCRC
is also responsible for continually assessing the adequacy of management
controls, identifying needed improvements, taking appropriate corrective actions,
and reporting annually on management controls. To this end, the MCRC issues
guidance, provides advice on control issues referred by all levels of
management, encourages and supports coordination of control issues crossing
organizational lines and advises senior management on whether reported
weaknesses are material.

One of the RRB’s strategic goals is to serve as responsible stewards for the
customers’ trust funds and agency resources by ensuring that trust fund assets
are projected, collected, recorded, and reported appropriately. This review
supports the agency’s efforts in meeting that goal.

Objective

The objective of this audit was to assess the effectiveness of internal control in
ensuring that budgetary transactions are properly recorded, summarized and
reported in accordance with applicable laws and regulations.

Scope

The scope of this audit was controls in effect during FY 2005. We extended our
tests of transactions to include certain payments processed during October 2002
through December 2004 (27 months) in order to assess the effectiveness of
controls over a longer period of time.

Methodology

In order to accomplish our objective, we

   •    interviewed responsible management and staff;
   •    identified controls;
   •    tested controls and transactions;
   •    analyzed FFS data extracts; and
   •	   obtained and reviewed the management control review documentation for
        the Budget Execution assessable unit.

We used the Government Accountability Office’s (GAO) Standards for Internal
Control in the Federal Government as the primary criteria for this assessment.

Our work was performed in accordance with generally accepted government
auditing standards as applicable to the objective. Fieldwork was performed at
the RRB headquarters in Chicago, Illinois during January through May 2005.
                                 RESULTS OF REVIEW


Our review disclosed that BFO has not implemented a comprehensive system of
internal control for budget execution, and that the agency’s management control
review program was not effective in disclosing the system’s deficiencies. Agency
controls over budget execution are not adequate because they do not include:

    •	 effective separation of duties in the recording and approval of
       transactions;
    •   adequate supporting documentation for transactions and reports; or
    •   controls to ensure timely recording of obligations to the correct fiscal year.

During our review, we also identified expenditures for membership fees during
years when such expenditures from appropriated funds were prohibited.


Authorization & Segregation Of Duties

Existing controls over recording budgetary transactions are not effective in
ensuring all transactions are fully authorized because they do not include
effective segregation of duties. Our tests of transactions and FFS system
settings disclosed that budgetary transactions are frequently entered and
approved by the same individuals.

Key duties and responsibilities need to be divided or segregated among different
people to reduce the risk of error or fraud. This segregation should include
separating the responsibilities for authorizing transactions, processing and
recording them, reviewing the transactions, and handling any related assets.

BFO’s implementation of FFS approval features for budgetary transactions
permits some individuals to approve their own data entry. Although the Budget
Section maintains manually prepared logs detailing approval of certain
transactions, these logs do not include all transactions processed by the section
and cannot prevent or detect errors. BFO previously implemented an OIG
recommendation to segregate entry and approval of voucher transactions
entered by its Accounting Section but did not extend implementation to the
Budget Section.1

As a result of the lack of segregation of duties, BFO has not ensured that only
authorized transactions will be processed into its accounting system. Our review

1
 “Review of Internal Control Over Financial Accounting For Obligations, Expenditures and
Accounts Payable,” OIG Audit Report No. 01-04, April 6, 2001.
of budgetary transactions processed into FFS during the first quarter of FY 2005
showed that 106 of 284 (37%) had been entered and approved by the same
individual. In response to an earlier audit recommendation, BFO reduced the
number of such transactions during the second and third quarter of the fiscal
year. During that period only 13 of 78 (17%) had been entered and approved by
the same individual; however, the FFS system’s security settings were not
modified to prevent such transactions.

Recommendation

We recommend that:

    1. 	 BFO modify FFS system security settings to prevent system users from
         entering and approving the same transaction.

Management’s Response

BFO has adjusted the FFS security settings to ensure that the same individual
cannot enter and post budget allotments. In FY 2006, they will periodically review
FFS records for other transactions to determine whether further security restrictions
are needed. The full text of BFO’s response is presented in Appendix II.


Supporting Documentation

BFO does not maintain adequate supporting documentation for budgetary
transactions and reports.

Internal control, transactions and other significant events need to be clearly
documented, and the documentation should be readily available for examination.
Documentation should be complete, accurate and facilitate tracing the
transaction or event, and related information, from authorization and initiation
through processing to completion.

Current procedure does not include preparation and filing of comprehensive
supporting documentation for all transactions and reports. During our audit we
requested access to supporting documentation for budgetary transactions
recorded in FFS and on Form SF-132, “Apportionment and Reapportionment
Request.”2 The requested documentation was not readily available for review
and, in some cases, not available at all.

The Budget Section maintains manual logs that document that section’s review,
approval and timing of most transactions; however, documentation to support the

2
 Form SF-132 “Apportionment and Reapportionment Request” is submitted to OMB to secure the
required approval of apportionment of funds appropriated by Congress prior to obligation by the
agency.
basis for the transaction is not always filed with the log. BFO does not maintain a
single file of supporting documentation for forms SF-132 submitted to OMB. We
were directed to a variety of sources to obtain verification of the accuracy of
figures within the SF-132; none were comprehensive.

As a result, BFO is unable to adequately demonstrate the basis for recording and
reporting budgetary transactions. A good system of supporting documentation
preserves the documentation that was actually used in the preparation of the
transaction or report. Typically, these are the same materials reviewed by the
authorizer before approving transaction processing or document release.

Recommendations

We recommend that BFO retain more comprehensive supporting documentation
for:

    2. transactions entered into FFS by the Budget Section; and
    3. Form SF-132, “Apportionment and Reapportionment Request.”

Management’s Response

Beginning with the first quarter of FY 2006, BFO will identify and retain source
documents related to FFS transactions and SF-132’s. The full text of BFO’s
response is presented in Appendix II.


Obligations Not Always Recorded Timely

Some obligations are not recorded timely. Our analysis of FFS data and detailed
examination of selected transactions identified 26 vendor invoices that were paid
from obligations recorded after services had begun or goods were delivered.3
These transactions included:
    •	 13 obligations recorded more than 30 days after the first full month of
       services had been rendered or after goods were delivered;
    •   three obligations recorded in an incorrect fiscal year;
    •	 two obligations recorded in amounts exceeding the supporting
       documentation; and
    •   one vendor invoice that was overpaid.4


3
 The questioned transactions were identified by selecting a sample of obligations for which FFS 

data indicated that the related obligation had been established after the date of the invoice. This 

judgment sampling was intended to identify examples and is not representative of the entire 

population. 

4
  The vendor subsequently refunded the overpayment. 

Some of the delayed recording was associated with annual agreements for
services for which the obligation was recorded piecemeal. The details of the
questioned obligations are presented in Appendix I.

All obligations should be recorded timely within the proper period to ensure
accuracy of budgetary reporting and prevent violations of the Anti-Deficiency Act.
The Anti-Deficiency Act places limitations on the obligation and expenditure of
government funds. Expenditures and obligations may not exceed the amounts
available in the related appropriation or fund accounts. Unless allowed by law,
amounts may not be obligated before they are appropriated. Additionally, the
amount of obligations and expenditures may not exceed the amount of the
apportionments received.5

The RRB has not implemented controls to ensure that obligations are recorded
timely. As a result, FFS does not always provide current information about the
status of agency obligations with respect to available appropriations and the
agency’s risk of violating the Anti-Deficiency Act is increased.

Although BFO is not responsible for the recording of agency obligations, the
Bureau of Fiscal Operations is responsible for monitoring and reporting on
budget execution for which it relies on FFS system data. In addition, as owner of
the FFS system, BFO is custodian of the data that would support identification of
delayed recording.


Recommendations

We recommend that BFO:

      4. 	 develop a control to identify organizations that do not disclose and record
           obligations within timeframes acceptable to BFO;
      5. 	 establish controls to ensure the accuracy of obligations and payments
           when vendor invoices are paid piecemeal; and
      6. 	 provide training in the requirements of the Anti-Deficiency Act and the role
           FFS plays in ensuring compliance to managers and staff responsible for
           entering into agreements and recording obligations.

Management’s Response

BFO has agreed to develop a procedure to provide for periodic review of cases in
which obligations are not recorded timely based on FFS records and will provide
the recommended training.



5
    See 31 U.S.C. §§ 1341-1342, 1349-1351, and 1511-1517.
BFO has declined to take action in response to recommendation #5 because
they believe that the procurement issues being addressed are primarily managed
by the Office of Administration and the recommendation should be directed to
that organization.

The full text of BFO’s response is presented in Appendix II.

OIG’s Comments on Management’s Response

The OIG believes that recommendation #5 pertains directly to BFO’s
responsibility for oversight of the agency budget and payment processing.
Although the Office of Administration is generally responsible for recording
obligations, BFO experiences the consequences of recording errors when
managing the budget and processing the payments. BFO’s current payment
procedures do not include controls to prevent overpayments of the kind identified
during the audit.

Management Control Review Needs Improvement

The RRB’s management control review process has not been effective in
assessing risk, identifying control objectives or developing control techniques for
budget execution.

A comprehensive system of internal control includes a risk assessment process,
implementation of appropriate control activities, and monitoring to assess the
quality of performance over time. The RRB has established the Management
Control Review Committee (MCRC) to oversee the RRB’s internal control
assessment process and provide guidance to managers in performing the
individual evaluations that support the assessment of the adequacy of internal
control agencywide.

The management control review process did not identify control weaknesses in
the Budget Execution system. The MCRC accepted BFO’s assessment of risk
and control effectiveness even though:

   •	 7 of the 15 control techniques were assertions that describe control
      objectives rather than control activities; and
   •	 6 of the 15 control techniques described procedures that are insufficiently
      detailed to determine how they function as management controls.

As a result, the management control review for Budget Execution does not
provide higher levels of agency management with an adequate basis for reliance
when providing assurance on the effectiveness of internal control agencywide.
Recommendation

We recommend that the MCRC:

   7. 	 work with BFO to develop an internal control assessment process for the
        Budget Execution System Assessable Unit that meets agency and GAO
        standards for internal control.

Management’s Response

The MCRC has agreed to work with the Bureau of Fiscal Operations to document
current Budget Execution controls. The full text of the MCRC’s response is
presented in Appendix III.


Prohibited Expenditure

The RRB needs to strengthen controls to ensure that appropriated funds are
used only for authorized purposes.

During this review, OIG auditors questioned $8,300 that the RRB paid for
memberships in professional organizations during FYs 1999-2004. The
membership fees were paid on behalf of a bureau head and two of his staff. The
bureau head had authorized the expense based on his experience that payment
of such fees was a common practice in private industry. The bureau charged the
expenditure to the budget object code for “temporary services” instead of
inquiring about the proper budget classification of the expense.

Historically, the use of appropriated funds to pay for memberships in
organizations (professional and otherwise) for the benefit of individual employees
was prohibited under 5 U.S.C. § 5946. In December 2001, Public Law 107-107,
(5 U.S.C. § 5757(a)) authorized agencies to, in their discretion, use appropriated
funds to pay expenses incurred by employees to obtain professional credentials,
state imposed and professional licenses, and professional certifications. Under
this law, an agency may only pay employee expenses necessary to qualify for a
particular profession. Agency payment of fees for voluntary memberships in
organizations of already-credentialed professionals remains prohibited under 5
U.S.C. § 5946.

OIG auditors brought this matter to the attention of the bureau head who had
requested the payments. At his request, the agency’s Bureau of Law reviewed
the issue and advised that the membership fees paid prior to December 2001
were prohibited pursuant to the restrictions of 5 U.S.C. § 5946 but could be
properly approved for payment after December 2001.
Based on the opinion of the Bureau of Law, the bureau head and the one staff
member affected by the Bureau of Law’s opinion formally reported the improper
payments to the RRB’s Chief Financial Officer and requested waiver of recovery
of the $2,835 paid prior to December 2001. Action on that request is pending.

Recommendations

We recommend that BFO:

   8. 	 ensure that management and staff who negotiate for goods and services,
        and authorize obligations are aware of the limitations on the use of
        appropriated funds.

Since the agency is not required to pay for membership fees, and other agency
professionals may be eligible, the RRB should establish a policy concerning such
expenditures. Accordingly, we recommend that BFO:
   9. 	 refer the issue of an agencywide policy concerning payment of fees for
        membership in professional organizations to the appropriate
        organizational component.

Management’s Response

BFO has agreed to provide the recommended training and to refer the issue of
the payment of fees for memberships to the General Counsel’s office. The full
text of BFO’s response is presented in Appendix II.
                                                                        APPENDIX I

              RECORDING OF OBLIGATIONS IN FFS DELAYED

We analyzed payments processed during the 27 month period October 1, 2002
through December 31, 2004 to identify obligations established after the date of
the vendor’s invoice. The following listing presents the details of the 26
obligations questioned because they were recorded after services began or
goods were delivered.
      √ indicates the 13 obligations that were recorded more than 30
      days after the first full month of service had been rendered or
      goods had been delivered.

      *indicates the 3 obligations that were not recorded against the
      correct fiscal year’s appropriation.

We have also noted the two items for which the agency’s recorded obligation or
payment exceeded the amounts supported by the vendor invoice.

The data analysis and review of supporting documentation was intended to
determine whether delays occur, and to identify examples to illustrate the
discussion. The results of this test will not support inferences about the
frequency of delayed recording or the length of delays.

I.    Obligations Recorded with a Single Purchase Order

In the following 18 cases, a single purchase order was used to record the
agency’s obligation.

                       SERVICES PERIOD
          INVOICE          OR GOODS           PURCHASE       AMOUNT
            DATE           DELIVERED         ORDER DATE     OBLIGATED
                        Software Upgrade
      1    8/31/2004    circa August 2004      09/21/2004    $15,716.00

      2    01/7/2003   03/08/03 - 03/07/04     03/12/2003    $17,615.00

      3    10/1/2003   10/01/03 - 10/31/03     12/17/2003    $13,343.00   √

      4    11/1/2003   11/01/03 - 11/30/03     12/17/2003    $13,343.00

      5   07/01/2002    07/01/02-06/30/03      11/19/2002     $1,694.59   √*

      6   10/01/2002   10/01/02 - 10/31/02     11/05/2002    $13,343.00

      7   04/01/2004   10/01/03 - 03/31/04     09/29/2004       $133.50   √

      8   04/01/2004   10/01/03 - 03/31/04     09/29/2004     $1,208.00   √

      9   04/01/2004   10/01/03 - 03/31/04     09/29/2004       $253.50   √

     10   02/01/2003   10/01/02 - 10/28/02     11/01/2002     $1,679.47
                                                                              APPENDIX I

                  RECORDING OF OBLIGATIONS IN FFS DELAYED

                         SERVICES PERIOD
           INVOICE          OR GOODS                PURCHASE       AMOUNT
             DATE           DELIVERED              ORDER DATE     OBLIGATED

      11   01/23/2003     02/04/03 - 05/03/03        04/15/2003        $1,067.50   √

      12   01/23/2003     11/01/02 - 01/31/03        04/15/2003         $555.00    √

      13   05/30/2003         05/09/2003             01/29/2004         $604.50    √*

      14   10/31/2002     01/01/03 - 12/31/03        01/28/2003        $5,610.00
                        BEFORE 12/27/02 - BILLED
      15   12/27/2002       AFTER SERVICE            04/10/2003        $2,023.87   √

      16   10/28/2003     10/01/03 - 12/31/03        10/23/2003       $73,828.50

      17   10/01/2004     10/01/04 - 10/31/04        11/22/2004       $13,343.00

      18   11/01/2004     11/01/04 - 11/30/04        11/22/2004       $13,343.00



II. Obligations Recorded Using Multiple Purchase Orders

In the following 8 cases, multiple purchase orders were entered to record the
agency’s obligation for recurring services that had been billed on a single invoice.
The auditor’s determination of timeliness was made by comparing purchase
order amounts with estimated accrued cost based on the amounts billed by the
vendor.
                                                        PURCHASE
     INVOICE        INVOICE           PERIOD OF          ORDER         AMOUNT
       DATE         AMOUNT             SERVICE            DATE        OBLIGATED

 1   03/08/2005    $295,314.00    10/01/04 - 09/30/05    11/18/2004     $49,220.00

     03/08/2005     $295,314.00   10/01/04 - 09/30/05    01/21/2005    $246,093.00


2    09/02/2003       $4,032.00   10/01/03 - 09/30/04    12/08/2003      $1,344.00     √

     09/02/2003       $4,032.00   10/01/03 - 09/30/04    02/23/2004      $2,688.00
                                                                            APPENDIX I

                  RECORDING OF OBLIGATIONS IN FFS DELAYED
                                                        PURCHASE
     INVOICE        INVOICE          PERIOD OF           ORDER        AMOUNT
       DATE         AMOUNT            SERVICE             DATE       OBLIGATED

3    08/01/2002      $95,449.25   10/01/02 - 09/30/03   10/31/2002    $15,912.20

     08/01/2002      $95,449.25   10/01/02 - 09/30/03   12/12/2002     $7,954.10

     08/01/2002      $95,449.25   10/01/02 - 09/30/03   01/30/2003     $4,954.10

     08/01/2002      $95,449.25   10/01/02 - 09/30/03   02/04/2003     $2,996.00

     08/01/2002      $95,449.25   10/01/02 - 09/30/03   03/26/2003    $63,632.60


4    11/20/2002    $118,920.56    10/01/02 - 09/30/03   10/31/2002    $10,804.00
                                                                                   $130,222.00
     11/20/2002    $118,920.56    10/01/02 - 09/30/03   12/12/2002    $14,419.00      Total
                                                                                    Obligated
     11/20/2002    $118,920.56    10/01/02 - 09/30/03   01/24/2003     $4,500.00
                                                                                   See Note 1
     11/20/2002    $118,920.56    10/01/02 - 09/30/03   01/29/2003     $9,921.00     Below

     11/20/2002    $118,920.56    10/01/02 - 09/30/03   03/20/2003    $90,578.00


5    08/01/2003    $102,130.60    10/01/03 - 09/30/04   12/09/2003    $34,045.00   √

     08/01/2003     $102,130.60   10/01/03 - 09/30/04   03/02/2004    $68,085.60

                                                                                   $153,581.64
6    10/07/2004    $140,258.44    10/01/04 - 09/30/05   11/17/2004    $23,377.40      Total
                                                                                    Obligated
     10/07/2004    $140,258.44    10/01/04 - 09/30/05   01/21/2005   $130,204.24
                                                                                   See Note 2
                                                                                     Below

7    09/23/2004       $1,200.00   September 2004        11/24/2004     $1,200.00   √*


 8   07/28/2003    $140,619.92    10/01/03 - 09/30/04   12/09/2003    $52,403.60   √

     07/28/2003    $140,619.92    10/01/03 - 09/30/04   03/09/2004    $88,216.32

Note 1
The total amount paid exceeded the amount of the supporting invoice by
$11,301.44. This overpayment was refunded by the vendor approximately 5
months after the last payment was issued but prior to this audit.
Note 2
The total amount obligated exceeds the amount of the supporting invoice by
$13,323.20. This discrepancy was referred to BFO on July 11, 2005.
       APPENDIX II




-13-
-14-
       APPENDIX III




-15-
